                        AUDIT OF AN EARLY DEFAULTED LOAN TO



                             ALEXANDER’S AUTO SALVAGE, INC.



                                      AUDIT REPORT NO. 1-13



                                             March 27, 2001






The finding in this report is the conclusion of the OIG’s Auditing Division based on testing of the auditee’s
operations. The finding and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
proprietary information subject to the provisions of 18 USC 1905 and must not be released to the public or
another agency without permission of the Office of Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION


                            OFFICE OF INSPECTOR GENERAL


                                 Washington, DC 20416




                                                                                   AUDIT REPORT
                                                                             ISSUE DATE:
                                                                             MARCH 27, 2001
                                                                             REPORT NUMBER: 1-13


Date:          March 27, 2001

To:            Allison B. Randolph III, District Director
                Louisiana District Office


From:          Robert G. Seabrooks, Assistant Inspector General
                For Auditing

Subject:        Audit of an Early Defaulted Loan to Alexander’s Auto Salvage, Inc.


        Attached is a copy of the audit report. The report contains one finding and two
recommendations. Portions of the report were modified as a result of comments made by the
lender. We have synopsized the lender’s comments and your comments in the report and
included them as an attachment.

        The finding in this report is the conclusion of the Office of the Inspector General based
upon the auditor's testing of the auditee's operations. The finding and recommendations are
subject to review and implementation of corrective action by your office in accordance with
existing Agency procedures for audit follow-up and resolution.

        Please provide within 30 days from the date of this report your management response to
the recommendations on the attached SBA Forms 1824, Recommendation Action Sheet.

       Should you or your staff have any questions or wish to discuss the issues further, please
contact Garry Duncan, Director, Credit Programs Group, at 202-205-7732.

Attachments
                                                    AUDIT OF


                                              EARLY DEFAULTED LOAN


                                                       TO


                                          ALEXANDER’S AUTO SALVAGE, INC.






                                                    TABLE OF CONTENTS


                                                                                                                                                Page

Background ........................................................................................................................................1

Audit Scope and Objective ................................................................................................................1

Results of Audit .................................................................................................................................1

Finding and Recommendations

    Improper Lender Processing Procedures were used to Approve a Loan ......................................1

Appendices
      A.              Auditee's Comments
      B.              Management Response
      C.              Audit Report Distribution
                                       BACKGROUND

        The Small Business Administration (SBA) is authorized under section 7(a) of the Small
Business Act to provide financial assistance to small businesses in the form of government
guaranteed loans. SBA guaranteed loans are made by participating lenders under an agreement
(SBA Form 750) to originate, service, and liquidate loans in accordance with Administration
rules and regulations.

        In September 1996, Hibernia National Bank (lender) approved loan number [FOIA EX.
4] for $200,000 to Alexander’s Auto Salvage, Inc. (borrower). The purpose of the loan was to
construct a building, purchase machinery, equipment, and inventory, and provide working
capital. [FOIA EX. 4]. The loan had an unpaid principal balance of $200,000.

         Alexander’s Auto Salvage was established in 1964 to engage in automobile parts salvage:
to sell used cars and parts and provide automobile repair and wrecker services. The principal
took over the business in 1994 and incorporated it in August 1996.

                             AUDIT SCOPE AND OBJECTIVE

        This report provides the results of our audit of the SBA guaranteed loan. The District
Office referred the loan to the Office of Inspector General (OIG), Investigations Division, for
review. The Investigations Division requested assistance from the OIG Auditing Division who
initiated the audit.

        The audit objective was to determine if the early loan default was caused by lender or
borrower noncompliance with SBA’s requirements. The SBA and lender loan files were
reviewed and district office, lender, and borrower personnel were interviewed. Borrower
invoices maintained by the lender and borrower bank records were reviewed and analyzed.
Audit fieldwork was conducted between September 1999 and March 2000. The audit was
performed in accordance with generally accepted Government Auditing Standards.

                                     RESULTS OF AUDIT

Finding        Improper Lender Processing Procedures were used to Approve a Loan

         The lender did not follow SBA requirements in approving and disbursing the loan. The
lender did not evaluate the borrower’s credit history or inform SBA of adverse credit
information. In addition, the lender did not disburse the loan proceeds prudently, report
disbursements accurately, or ensure loan proceeds were used for authorized purposes. As a
result, SBA approved a loan to a non-creditworthy borrower who misused the loan proceeds. If
the loan guarantee is honored, SBA’s potential loss would be $120,000.




                                                1
Lender did not obtain a borrower credit report

        We found no evidence that the lender, before approving the loan, obtained a business
credit report, contacted outside sources about the borrower or was aware of adverse credit
information about the borrower. The loan was approved, in part, based on “the customer’s clear
credit history.” The borrower’s credit history, as a corporation was clear as it had been
incorporated for less than 30 days prior to the lender’s loan approval. The credit history of the
business before incorporation was, in fact, not clear due to a bankruptcy and Internal Revenue
Service (IRS) tax liens. This information was not disclosed in the loan application.

        We obtained a business credit report, dated January 2000, and Bankruptcy Court records
that showed that the borrower, while operating as a sole proprietorship, filed for bankruptcy
under Chapter 13 in October 1989 and subsequently re-filed under Chapter 7 in August. The
report also showed that the IRS filed tax liens against the business assets in September 1990.
The tax liens were due to the borrower’s failure to pay payroll taxes. According to Dun &
Bradstreet, a business credit report obtained prior to loan approval would have disclosed the
business’ questionable credit history [FOIA EX. 5]. Section 120.150, Title 13 of the Code of
Federal Regulations (CFR) requires that applicants be creditworthy and states, in part, that SBA
will consider the character, reputation, and credit history of the applicant.

Adverse credit information not provide to SBA

        SBA was not notified by the lender of IRS tax liens totaling about $300,000. The IRS tax
liens were for unpaid payroll taxes covering the period March 1984 through December 1989.
The lien against the collateral was the result of a judgement issued in May 1991 in favor of
Merchants & Farmers Bank and Trust Company. The lender became aware of the tax liens and
judgment based on documents received from its attorney on October 29, 1996. The lender
received the information, a result of the attorney’s due diligence efforts, after loan approval.
After learning of the tax liens, the lender closed the loan and disbursed the proceeds in December
1996.

       The loan agreement states that the lender should be in receipt of evidence that there has
been no adverse change which would warrant not disbursing the loan proceeds. A loan officer in
the Louisiana District Office stated that the Federal tax liens and the judgment were material
adverse information and that the lender’s actions were not prudent.

Loan proceeds were used inappropriately

       The borrower used loan proceeds inappropriately. Some examples of the inappropriate
uses were:

•		 Interim loan proceeds totaling $100,000 ($75,000 for equipment and $25,000 for working
    capital) were not used as authorized. A review of the borrower’s subpoenaed bank records
    showed that the borrower failed to deposit $50,000 of the $100,000 interim financing in the
    business’s checking account (which was with the lender) and admitted to an SBA
    investigator that the funds were used for ineligible and unauthorized purposes.



                                                2
•		 After the borrower defaulted, the lender made a surprise visit to the borrower and discovered
    that a building addition to be built with $40,000 of loan proceeds was never constructed. The
    lender subsequently agreed not to include the $40,000 when requesting SBA to honor the
    guarantee.
•		 Our review of receipts provided to the lender in support of loan disbursements showed that
    $25,300 was for equipment purchases by a related business, Alexander Paint and Decorating.
    There was no evidence in the file that the lender challenged these receipts.
•		 The borrower stated that loan funds were used for renting space and operating an affiliate
    business, paying family members and business associates for unspecified professional
    services, and personal expenses of the owner.

        The loan agreement required that the proceeds of the loan be used for specific purposes
and further stated that prior to disbursement of any funds, the lender must be satisfied that
construction was completed in accordance with the plans and specifications and there are no
labor and material liens. For the working capital, the authorization required the lender to obtain
written justification for disbursements, including canceled checks, paid invoices, and receipts.

Lender did not disburse loan proceeds properly

         A review of the loan authorization, the settlement sheets (SBA Forms 1050), and the
lender’s records disclosed differences between the authorized use of loan proceeds, the amounts
reported on SBA Form 1050, and how the funds were actually disbursed. The following table
illustrates the differences identified.

 ITEM                         Per A&LA               Per         Per Lender
                                                 Settlement       Records       Difference
                                   (a)             Sheets            (c)        (b minus c)
                                                     (b)
 Inventory                 $ 51,000            $ 51,000         $ 21,000         $30,000
 Working Capital           $ 50,000            $ 56,380         $ 50,252         $ 6,128
 Equipment                 $ 59,000            $ 59,120         $ 95,248        ($36,128)
 Construction              $ 40,000            $ 33,500         $ 33,500           -0-
 Totals                    $200,000            $200,000         $200,000           -0-

        The lender disbursed the loan proceeds, executed the settlement sheets, and had a copy of
the loan authorization. Therefore, the lender should have been aware of the differences between
what it disbursed, how it reported the disbursements, and the requirements of the loan
authorization.

       Section 120.140 of 13 CFR states that lenders must act ethically and exhibit good
character. Among examples of unethical behavior cited in the CFR is “Knowingly
misrepresenting or making a false statement to SBA.” [FOIA EX. 5].




                                                 3
        In addition to the aforementioned problems, disbursements of working capital which
totaled in excess of $50,000 were not supported, as required. The loan agreement required that
working capital be advanced based on written justification and only after prior working capital
disbursements are accounted for by presentation of canceled checks, paid invoices, and receipts.
In a memorandum dated August 26, 1997, a lender official concluded that documentation of
disbursements was poor and not in compliance with SBA requirements.

Loan agreement requirements were not met

       In addition to the non-compliances previously mentioned, we noted that the lender did
not ensure that the requirements for construction and taxes were met. Specifically, the lender did
not:
       •		 disburse interim funds based on completion of construction,
       •		 obtain evidence that construction had been completed in accordance with final plans
           and specifications and that there were no labor or material liens, and
       •		 did not make interim and final inspections of the construction effort or obtain a
           certificate of completion from an architect or engineer.

        Each of the aforementioned items was a requirement of the loan agreement. Because the
lender did not ensure the requirements were met, the borrower was able to spend the loan
proceeds designated for construction on other items. The lender was not aware of these facts
until after the loan default.

         Concerning the taxes, the lender did not obtain evidence that all of borrower’s taxes were
current and that a depository plan for future withholding taxes was in effect. As previously
stated, the borrower had tax liens and judgments against its assets for unpaid payroll taxes. In
addition, we noted that the borrower issued checks totaling approximately $44,977 to family
members and the company secretary to pay employee salaries.

         The loan agreement required that, “prior to disbursement, Borrower provide evidence that
all taxes of Borrower are current and that a depository plan for future withholding taxes is in
effect.”

RECOMMENDATIONS

        We recommend that the District Director, Louisiana District Office, take the following
actions:

1.A.		   Determine the financial impact of the lender's noncompliance on the guarantee and
         initiate a recommendation to the Administrator for the denial of the guarantee or require a
         lender repair, as appropriate.

1.B.		   Remind the lender of its obligation to comply with SBA regulations, polices, and
         procedures for originating loans.

Auditee’s Response


                                                  4
        The lender disagreed with our conclusion that it failed to notify SBA of tax liens against
the borrower. The lender stated that the tax liens were against the former business owned by the
borrower’s father and, therefore, were not applicable to the borrower. Concerning the
disbursement of loan proceeds, the lender agreed that there were differences between the
amounts authorized, reported in the SBA Forms 1050, and the lender’s records, but disagreed
with our calculations. The lender believes the differences either were not material or improved
SBA and the lender’s collateral position. The lender did not address the issues of (1) obtaining a
credit report for the borrower, (2) the borrower’s inappropriate use of loan proceeds, and (3) the
noncompliance with the authorization and loan agreement.

Evaluation of Auditee’s Response

        The lender’s comments do not address whether it should have obtained credit history
information about the borrower. The borrower was incorporated less than 30 days before the
loan’s approval and operated the business before and after incorporation. Therefore, it would
have been prudent for the lender to obtain credit information about the borrower prior to the
incorporation. As stated in the finding, such a review would have disclosed questionable credit
information.

        The tax liens and the judgment, [FOAI EX. 6], were also against the business property
located at [FOIA EX. 4]. Initially, this property was collateral for the loan and, therefore, they
were applicable to the loan. The tax liens show an undesirable pattern of operation that a prudent
lender should have considered prior to loan approval and disbursement.

        An additional point not mentioned in the finding was the lender’s failure to verify how
[FOIA EX. 6] obtained ownership of the business. The lender’s credit memorandum stated that
[FOIA EX. 6] inherited the assets of his father’s auto salvage business. This is not correct as his
father is currently alive and has been active in the business operations. Prudent lending requires
obtaining evidence that applicants own the business and assets being financed.

        In the lender’s response, the calculation of the use of loan proceeds inaccurately shows
that the loan agreement authorized about $216,000 in loan proceeds and that the SBA Forms
1050 reported disbursements of only about $177,000. The fact that there are differences between
the authorized amounts and the reported amounts, using either the lender’s calculations or the
OIG calculations, supports our contention that the lender did not comply with the loan
authorization requirements and did not account for the loan proceeds.

       The lender did not address the borrower’s inappropriate use of the loan proceeds and the
lender’s lack of compliance with the loan authorization. We accept this as agreement that the
conditions are correct as reported.




                                                 5
Management Response

[FOIA EX. 5]

Evaluation of Management’s Response

[FOIA EX. 5]




                                      6
                                                                                           Appendix A

•         .·HIBERNIf\
            HI BERN11\
DSc:ember 15, 2000
lJ8cember15,2000


Jame. W. Hudson, Audit Manager
U.ll.Small Business Admlnlitra1lon
O!flC8 of Inspector GelWlll
                    General .
Wa.hington, DC 20416
Washington,


RE: A1e)lJlrldef's AUIo Salvage, Inc.
    Ale)lJlrldef's Auto
      I.<W1I1 CFom
    . Imn"            £x , 4.1
              [.FO/I1 £x,

C~ar    Mr. Hudson:


H.,emle
Hl>eml. National Bank rec:aiyed
                            recajv8CI1Is         certification In January'1997 and ha.
                                         lis PLP certiflcatlon                        hIos bean a ...ding
squre.
squrce for .man
             sman busln.           seeking SBA guaranteed lOanaill
                          ••._. . neklng                         Ioanlln!hethe ~ New     one... ....
                                                                                       N....
IITId throughout Louisiana
arid Ihtoughout   lDuisianll lOrfelt Iha  past tine years:
                                     the paot_       years: HIbomIIo         _the
                                                                       riormaJy _ . the SBA loan.
                                                              HIbamIIo rionnaJy
~ origlnot.
""                    the guldOlnea
     otig1note within !he  gu....... of the SBA', Slandald          0p0ntIng P
                                                         Standard 0p0inItIng    Proooduru,
                                                                                      - . and_Ihe !he
DIstr1ct 0IIIce with v.tllch
DIstrict                      .... WO!I<
                     \\tllch ...           wll suppot\
                                   \Ml!1< wil           this statam.nt.
                                               support Ihi1I stalam.nt. .·
                                                               .
n. ;
                          originated by Calcasleu Morine
The subject loan was origlnatad
";'dod
r.i>ded by Hibemla Bank allar  anar Hlbomla
                                                                 Ba~ and subSequently
                                                        M&rine eanl<        &ubsequently dosed_
                                                                                           dosed.-ld
                                                                Calcaoiou in August 19ge. The original
                                       Hlbemla merged with COlellslau
servicing officer was an employe.
                             employee of Calcasieu that was let    go       by Hibernia shortly after out
 merger with Calcasiau. I took over'servldng once the bonower    borrower defaulted under the Wmsfarms of
!tie ao-r:s.
     to.n.
 The OIG'.            lis Audit Report
       OIG" draft of Its                  Alexandefs Auto Salvage,
                                Roport on Alexandef.      Sotvage, Inc. lndic8taa
                                                                        IndicatH __ ''"" failed
 iii notify Ih<O
 ui         thio SBA 01 tax Ions,
                            lions, judgments and a banJauptq              InvoMng Ihe bom>wer
                                                   banJauptcy proceeding InYoMng
 ~ Quarantor.   This 10
     guarantor. Thio    ari .eironeoua conduaion. ~ 10
                     is ari.""""-'a                     Is apparent         the enclosed c:opiea
                                                           sppaterit from Ihe             copiea 0/
 Fade,.1 Tax
 Fede",1 Tc Uan   N _ and judgement thallhe auaged
             Uon Notlnc.1IoN                                         fllilura by.
                                                             oUoged fllilure      Hlbemill to dI.cIcse
                                                                              by·HlbemIa      dlacIcse
 a~vers.
 .~yorsa aedil information is Incotr8ct.    II appe... baled
                                incol'l8ct. It         baaad upon !hethe finding.         aucIt
                                                                          Iinding. of the ......
 ci>nducted .by the OIG'.    Audll Division thai
                     OIG's Audit                           ha. confUsed
                                             that the OIG has    confU.ed Alexandefs
                                                                               Alexandef. Auto Selvage,
                                                                                                 Salyage,
 lri<:. (the Borrower) and
 lric.                      C   F'o IA E.
                                1"0         i· /P
                                         E- 'f.                         :Jwith
                                                                        :Jwlth Alexanda  .. Auto
                                                                                Alexand...        Salvage
                                                                                            AutoSalyage
 ahd[I'OIA "-X· ~ :1.
 ahd[FOIA                J. AIOxondafs
                              AIOxand.fs Auto Salyag.,      Inc:. was.
                                                   Salvaga, Inc.  wall. separate and diatinct
                                                                                          distinct legal
 o;,lIjy                   Aulo Selveg
               Alexandel'S Auto
 onll))' from Alexanders         SalYage.•• and C FO I po,A ....~'f..
                                                                    'j..   '"
                                                                           Ii>                       .:l
                                                                                                     .J,
 Alexandor. Tho
 Alexand.r.                      ·agalnstC '::OIA
                       lion ••,. ·ogalnst(
               The tax liens.,,                         t:X, I."
                                                1"011'+ f:X.     t..,          ::I
                                                                               :!not not C
                                                                                         C FoIA    E.x.
                                                                                             fOlA EX· 0J

 w. aloo reyiewed
 Wa                       table Induded
           ",viewed the labia              the Audit Report·thet
                                induded in tho                            InIcnnation obtained
                                                     Repo.tthel compil•• infcnnatIon
 riom tho  IeiIn authorization, Iha
       the IoiIn                    _emont shee'"
                                tho l81Uement             Hibernia', nooord.
                                               sheeto and Hibernia'.              found ft~ to
                                                                     noc:ord. and l0un4
 q,ntain
 q:,ntain scm,
          som. misealculations.        t~g repreHnts
                 miscalculations. The tolbwing   repruenU our r.view                   sam.
                                                               r.v~ of these same rwcords:
                                                                                      nacords:




                                                      7


                                                                                                      Appendix A



ep1embel' 20, 1996
eptembel'
palie22
Page




   n.
1 The SM.
        3M aWH,e"        to the 1uua.nc.
            8u1Jse"quent 'to       :lUuance of: t..M .kuUlorl:aUCIft
                                            of" tNi                             "9.l" • ...-nt
                                                                     IlDd Loan "On..-nt
                                                     AuUiorl:aUan Ilftd
.. ut:hor1:~ an
.ut:hor1:~   All lncreu.
                 lncreue 1ft                disbUrled. tor .qul~ fza.
                                     amount clisbUr'"
                                 UM UlCWl.t
                            1..n UM:                                     fora. ,50,000 to
$7~.OOO.. Il••• e a •• th4 ~~o.ed
'7~.OOO                       ~clo.ed letter dated ~~r 1. 1"'.

             dllbursemenllln
 AltJ:IOugl> dllbursemenll      excess of $50,000 we",
                             In exces.              were mode' forWCll<lng
                                                                 forWOll<lng ""pl,,"1 without adequate
 .~ ... beneve  beroeve the $3,000 in a.cau
                                      a....a disbursamenll            ,inllgnlli<:ont In amount.
                                                                wan ,inllgnllicant
                                              disburaaments WIIIII
                  alUlOugh there were slgnlfi,
 Additionally, aiUlOugh                        c ant VIIrIatIons
                                         slgnlfil'8lll             ~n the . - of loan
                                                       V1IrIatIons blilween
 pr6ceeds
 pr6ceecIs contained In the Authorization and Loan Agreeinent for Inventory, equipment
 8nf1  construction we believe we only improved
  anf1 construc\lon                      improVed our posniqn and that of the SBA
, the value of our collateral at the time the fund. we",
                                                     were disbureed.
                                                          disbursed. We Incraased
                                                                          Incraa.ed our
                                                                                        to       a.
                                                                                                 a.
           on
  reliance oil the equipment and the building, and dea"easitd our reliance
                                                                     ",Ilance on the
  inVentory which consisted Of salvage vehlcla.
                                           vehicles.               '

 w,. would appreciate the OIG's Audit Division'.            inclusion of the referenced changes
 id*ntlfied abova
 id.ntlfied above In their final Audtt Report.'

 SlJould you have any questions please do not hesitate
 Sllould                                                          to ""II
                                                                     cell me,
                                                                          me.



  Stx:erety,




   EinciOsurel
   EinciOsural




                                                      8


                                            Appendix B


Management Response



Sent: February 6, 2001
To:    James W. Hudson
From: [FOIA EX. 6]
Subject:     Response to Audit Report

[FOIA EX. 5]




                                        9
                                                                                                                            Appendix C

                                            REPORT DISTRIBUTION




Recipient                                                                                                                No. of Copies



Associate Deputy Administrator for Capital Access .............................................................. 1



Associate Administrator for Field Operations ........................................................................ 1



Associate Administrator for Financial Assistance.................................................................. 1



Financial Administrative Staff................................................................................................ 1


 Attention: [FOIA EX. 6]



General Counsel...................................................................................................................... 2



General Accounting Office ..................................................................................................... 1


